                               OIG Recovery Act Flash Report
                                            US Department of Commerce
                                             Office of Inspector General

                                                    March 2009

Program/Operation: Broadband   Risk Areas: Cost   Schedule     Performance/Quality     Accountability/Transparency


  American Recovery and Reinvestment Act of 2009

       NTIA Should Apply Lessons Learned from Public Safety Interoperable
       Communications Program to Ensure Sound Management and Timely
       Execution of $4.7 Billion Broadband Technology Opportunities Program
       (ARR-19583)

  The American Recovery and Reinvestment Act of
  2009 authorized the National Telecommunications                    Breakdown of $4.7 Billion BTOP Funding
  and Information Administration (NTIA) to                        $4.35 billion for competitive grants to acquire
  implement      the      Broadband       Technology              and deploy equipment, technology, and
  Opportunities Program (BTOP)—a $4.7 billion                     infrastructure that promotes access and
  one-time competitive matching grants program to                 educational/employment opportunities among
                                                                  low-income, unemployed, and otherwise
  expand broadband services to unserved and                       vulnerable populations and improves public
  underserved areas, improve broadband access for                 safety broadband communications services. Of
  public safety agencies, stimulate the economy and               this amount
  create jobs.                                                      • $250 million for innovative programs that
                                                                      encourage sustainable adoption of
                                                                      broadband services
  NTIA will implement the program alongside the
                                                                    • At least $200 million to upgrade technology
  Department of Agriculture’s Rural Utilities                         and capacity at public computing centers,
  Service—which received $2.5 billion for broadband                   including community colleges and public
  loans, loan guarantees and grants under the                         libraries
  Recovery Act—and in consultation with the Federal                 • $10 million to the Office of Inspector
  Communications Commission (FCC).                                    General for program audits and oversight

                                                                  Up to $350 million for developing and
  BTOP will make 2-year competitive grants to                     maintaining statewide broadband inventory maps
  states, nonprofit organizations, and broadband                  to provide accurate representation of broadband
                                                                  availability.
  service providers, and require a 20 percent
  matching investment from nonfederal funding                     Source: American Recovery and Reinvestment Act of
  sources. Funding for the program office expires                 2009

  September 30, 2010.

  NTIA is taking on this program midway through its administration of the Public Safety
  Interoperable Communications (PSIC) program—a $1 billion grants initiative established by the
  Digital Television Transition and Public Safety Act of 2005. PSIC’s goal is to help public safety
  agencies establish interoperable emergency communications systems within a 3-year funding
  time frame. Like BTOP, the PSIC program required a 20 percent nonfederal match and federal
  funding expires on September 30, 2010.

  The Office of Inspector General has statutory oversight responsibilities for each of these
  similarly structured programs. Our audit work on PSIC to date provides important lessons
  learned for the NTIA broadband opportunities program—particularly for seeking an extension of
  time for funding upfront, improving the evaluation of project proposals and spending plans, and
completing a programmatic environmental assessment expeditiously—to ensure BTOP funds are
used effectively and grants meet program objectives.

A general concern we expressed when NTIA was charged with operating the PSIC program and
again in our FY 2008 report on the top management challenges facing the Department 1 bears
repeating here: grant programs of the size of the $4.7 billion broadband initiative and PSIC are
enormous undertakings for NTIA. The agency’s prior experience administering grants has been
with two small programs—the Public Telecommunications Facilities Program, whose FY 2008
funding availability was just $16.8 million, and the discontinued Technology Opportunities
Program, which issued a total of $233 million in grants during its 10-year span (1994-2004).

PSIC Awards Process Produced Strong Grant Projects but Inadvertently Shortened
Project Time Frames

    PSIC Grantees Appear Unlikely to Finish Projects within the Short Funding Time Frame
The overarching finding of our review of PSIC implementation 2 was that the awards process—
while incorporating some best practices that produced strong grant applications fully aligned
with the program’s objectives—effectively reduced the time frame for completing projects. As a
result, a number of grantees appear unlikely to finish their projects within the mandated deadline.
We therefore recommended that NTIA (1) promptly identify those at high risk of missing the
completion deadline, provide technical assistance, and carefully monitor their progress; and (2)
keep Congress informed of the PSIC program’s status towards achieving its objectives. If
necessary, NTIA should work with Congress to allow the Assistant Secretary for
Communications and Information to extend, on a case by case basis, the deadline for grantees to
expend the PSIC grant proceeds. As NTIA prepares to implement the broadband program, it
should consider the following three lessons learned from its administration of PSIC.

Lesson 1:        Seek to Extend Funding for the Program Office Beyond FY 2010 to
                 Ensure Proper Oversight

Like PSIC, the broadband program faces a September 30, 2010, funding time constraint that
could impact the quality and success of funded projects, and effective use of funds, though in a
different manner. Under the American Recovery and Reinvestment Act of 2009, NTIA has until
September 30, 2010, to award grants; any money remaining at September 30 will be returned and
the BTOP office will no longer be funded by the Recovery Act appropriation. While there is no
indication at this time that grant awards cannot be made by that deadline, the Recovery Act does
not authorize funding for managing the program beyond September 30, 2010. Without sufficient
funding for a BTOP program office, funded projects that are still under way at September 30,
2010, will no longer be actively managed, monitored, and closed out. To address this, NTIA
could seek a revision to the broadband program requirements that extends the operational time
frame for the BTOP program office to a minimum of 1 year beyond the award period of the last

1
  U.S. Department of Commerce Office of Inspector General, November 2008. Top Management Challenges Facing
the Department of Commerce, OIG-19384. Washington, D.C.
2
  U.S. Department of Commerce Office of Inspector General, March 2009. Public Safety Interoperable
Communications Program: Grantees Appear Unlikely to Finish Projects Within Short Funding Time Frame, DEN-
19003. Washington, D.C.


Commerce OIG                                        2                                           ARR-19583
grant issued. This change would enable the agency to continue to manage and properly close out
all active grants, and ensure grantees meet financial and program reporting requirements.

Lesson 2:          Evaluate and Approve Detailed Project Proposals and Spending Plans
                   with Joint Peer Reviews before Making Grant Awards

PSIC’s enabling legislation required that grant awards be made by September 30, 2007—before
grantees had submitted their spending plans and detailed project proposals (“investment
justifications”). Funds were not disbursed until the plans and justifications had been approved.
The approval process was rigorous: state spending plans had to clearly identify the gaps in
communications their grants would target and the plans were subject to peer reviews by
Department of Homeland Security, Federal Emergency Management Agency, and state and local
emergency communications staff, which resulted in solid project proposals. But this “after
award” approach ultimately delayed the release of funding—and project initiation—by 6 to 12
months. It also slowed the pace of acquiring equipment and building infrastructure—with first-
year spending among grantees averaging less than 1.5 percent of grant amounts, and less than 7
percent at 17 months.

For the broadband program, NTIA needs to establish a similarly rigorous review process that
ensures applicants clearly identify and rank gaps in broadband coverage, and that proposals
target areas of greatest need. NTIA needs to also consider implementing peer reviews with FCC
and Agriculture to validate that proposals are achievable, high quality, and consistent with
program objectives. And it needs to establish a review process that ensures proposals are
evaluated in a timely manner and in advance of grant award.

Lesson 3:          Complete an Environmental Assessment of the Broadband Technology
                   Opportunities Program Promptly

Grantee progress under PSIC was further slowed by the wait for required programmatic
environmental assessment of projects, 3 which was issued more than 16 months into the 36 month
grant period. The National Environmental Policy Act protects public health, safety, and
environmental quality by ensuring transparency, accountability, and public involvement in
federal actions and in the use of public funds. The American Recovery and Reinvestment Act of
2009 provides that adequate resources must be devoted to ensuring that applicable environmental
reviews under the National Environmental Policy Act are completed on an expeditious basis and
the shortest existing applicable process under NEPA be used. An Office of Management and
Budget March 11, 2009, memorandum on reporting NEPA status and progress under the
Recovery Act established procedures for executive agencies to report their progress to the
Council on Environmental Quality beginning as soon as possible, but no later than April 7, 2009,
with weekly updates through April 28, 2009. The OMB memo alerts agencies to ensure that they
address compliance issues as quickly as possible for any projects or activities for which
necessary environmental activities and permits have not been completed. NTIA must ensure a
programmatic environmental assessment for broadband projects is completed expeditiously so as
not to hinder grantees from completing their projects within mandated time frames.

3
    Required by the National Environmental Policy Act.


Commerce OIG                                             3                             ARR-19583
   BACKGROUND
   The American Recovery and Reinvestment Act of 2009 allocated $7.2 billion for spending on broadband infrastructure
   through two federal agencies: NTIA received $4.7 billion to operate a grants program; the Department of
   Agriculture received $2.5 billion to operate a loan and loan guarantee program. To ensure sound management
   and timely execution of NTIA’s Broadband Technology Opportunities Program, we analyzed similarities and
   differences between NTIA’s Public Safety Interoperable Communications grants program, which is in its
   second year of operation, and the broadband program to identify lessons learned that NTIA needs to consider
   in developing and implementing BTOP. This report is the first in a series of timely advisory reports we plan to
   issue on NTIA’s administration of the broadband initiative, with the goal of identifying potential and emerging
   program and financial risks that management can take prompt action to mitigate.

   The American Recovery and Reinvestment Act of 2009 provided $10 million for Office of Inspector General audits
   and oversight of BTOP. This is a flash report, not an audit conducted in accordance with Government Auditing
   Standards, and is significantly reduced in scope. Under the Recovery Act, inspectors general are expected to be
   proactive and focus on prevention. We believe this flash report is responsive to this intent.




Commerce OIG                                               4                                                  ARR-19583
